AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

  POLICING SERVICES AND OFFICE OF JUSTICE 

 PROGRAMS GRANTS AWARDED TO THE CITY OF 

          HARTFORD,CONNECTICUT 



         u.s. Department of Justice
       Office of the Inspector General
                Audit Division

         Audit Report GR-70-13-004 

                March 2013 

    AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

 POLICING SERVICES AND OFFICE OF JUSTICE PROGRAMS 

          GRANTS AWARDED TO THE CITY OF 

              HARTFORD, CONNECTICUT 


                        EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of four grants awarded to the city of
Hartford, Connecticut (Hartford). These grants were an Office of Community
Oriented Policing Services (COPS) Hiring Recovery Program (CHRP) grant, an
Office of Justice Programs (OJP) Bureau of Justice Assistance (BJA) Recovery
Act Edward Byrne Memorial Justice Assistance Grant (JAG), and two non-
Recovery Act JAG grants. Collectively, the grants totaled $6,495,028. The
general purpose of the Recovery Act grants was to preserve jobs, promote
economic recovery, and increase crime prevention efforts. In addition, COPS
awarded CHRP funding to increase community policing capacity and crime-
prevention efforts, and OJP awarded JAG funding to support a range of
program areas including law enforcement, prosecution and courts, crime
prevention and education, corrections and community corrections, drug
treatment and enforcement, planning, evaluation, technology improvement,
and crime victim and witness initiatives.

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We also assessed Hartford’s program performance in meeting grant
objectives and overall accomplishments.

      We reviewed Hartford’s compliance with key award conditions and
found issues with Hartford’s CHRP application. We found inaccuracies in
7 data elements and a lack of supporting documentation for 10 data
elements Hartford submitted to COPS in its grant application. To select
CHRP grantees, COPS developed a methodology that scored and ranked
each applicant based on key data submitted by the applicant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. Specifically, we found
inaccuracies or Hartford was unable to provide supporting documentation for
application data regarding the categories of: Locally Generated Revenues
for FYs 2007 and 2009; Law Enforcement Reduced through Layoffs (Civilian
Agency Personnel and Other Government Personnel); and Law Enforcement
Reduced through Official Policies (Civilian Agency Personnel, Law
Enforcement Personnel, and Other Government Personnel).


                                     -i-
      Additionally, we found that Hartford overcharged the grants $15,419.
Harford overcharged the CHRP grant $14,160 in fringe benefit expenditures
and purchased $1,259 in unallowable supplies for a JAG. Hartford charged
the CHRP grant directly $8,908 in Workers’ Compensation, $2,029 for
Medicare expenses and duplicated the charges as part of the fringe benefit
rate. In addition, Hartford included the Workers’ Compensation direct
charge in the payroll amount used to calculate fringe benefits. As a result,
Hartford charged another $3,223 in unallowable fringe benefits. Because
Hartford corrected the $8,908 Workers’ Compensation, the $2,029 Medicare
duplicate charges and the $1,259 unallowable expense during our audit, we
question the remaining $3,223.

      Hartford also had an inadequate drawdown process for the CHRP
grant. As a result, Hartford drew funds well in advance of their being
expended. The guidelines specifically require funds be drawn on a
reimbursement basis or used within 10 days. Over the course of the grant,
Hartford drew down excess funds on four of the nine drawdown requests we
reviewed.

     Additionally, Hartford did not maintain documentation supporting the
information in the JAG progress reports until October 2011. For JAG number
2007-DJ-BX-0868, Hartford was unable to support that the overtime
charged to the grant was used for one of the approved programs or
divisions. According to the Hartford Police Department Fiscal Manager, the
Hartford accounting system could not identify the division or program where
an officer incurred the overtime charged to the grant and the overtime
would have been verified manually from time cards for 3 years. Without the
supporting information, we were unable to verify whether the information in
the JAG progress reports was accurate. Although Hartford officials generally
submitted each of the reports we tested within the required timeframe and
included all of the required performance elements in its reports, it could not
support information in its JAG progress reports. As a result, we concluded
that Hartford did not meet the reporting requirements.

      These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.  
       
      We discussed the results of our audit with Hartford officials and have
included their comments in the report, as applicable. In addition, we
requested a response to our draft report from Hartford officials, COPS, and
OJP, and their responses are appended to this report as Appendices III, IV



                                     -ii-
and V, respectively. Our analysis and summary of actions necessary to close
the recommendation can be found in Appendix VI of this report. 




                                   -iii-
                                TABLE OF CONTENTS


INTRODUCTION .......................................................................1 

The Office of Community Oriented Policing Services .........................1 

Office of Justice Programs ............................................................2 

American Recovery and Reinvestment Act ......................................2 

City of Hartford, Connecticut.........................................................4 

OIG Audit Approach.....................................................................4 

 
FINDINGS AND RECOMMENDATIONS........................................6 

CHRP Application Statistics ...........................................................6 

Internal Control Environment .......................................................7

Salary and Fringe Benefits Expenditures .........................................8 

Other Grant Expenditures .......................................................... .11

Budget Management and Control................................................. 11

Reporting................................................................................ 11

Drawdowns ............................................................................. 14 

Compliance with Award Special Conditions ................................... 15

Program Performance and Accomplishments ................................ .17 

Conclusions .............................................................................. 18 

Recommendations..................................................................... 18 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 20

 
APPENDIX II - SCHEDULE OF DOLLAR RELATED FINDINGS..... 22 

 
APPENDIX III - CITY OF HARTFORD RESPONSE TO THE 

   DRAFT AUDIT REPORT ..................................................... 23 

 
APPENDIX IV - OFFICE OF COMMUNITY ORIENTED POLICING 

   SERVICES RESPONSE TO THE DRAFT AUDIT REPORT........ 26 


APPENDIX V - OFFICE OF JUSTICE PROGRAMS RESPONSE 

   TO THE DRAFT AUDIT REPORT ......................................... 30 


APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT..................................................... 32 

 




 
                            INTRODUCTION
       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of four grants awarded to the city of
Hartford , Connecticut (Hartford). These grants included an Office of
Community Oriented Policing Services (COPS) Hiring Recovery Program
(CHRP) grant number 2009-RK-WX-0191, an Office of Justice Programs
(OJ P) Bureau of Justice Assistance ( BJA) Recovery Act Edward Byrne
Memorial Justice Assistance Grant (JAG) number 2009-SB-B9-1792, and two
non-Recovery Act JAG grants numbers 2009-DJ-BX-1463 and
2007-DJ-BX-0868. Collectively, the grants totaled $6,495,028. The general
purpose of the Recovery Act grants was to preserve jobs, promote economic
recovery, and increase crime prevention efforts. In addition, COPS awarded
CHRP funding to increase community policing capacity and crime-prevention
efforts and OJP awarded JAG funding to support a range of program areas
including law enforcement, prosecution and courts, crime prevention and
education, corrections and community corrections, drug treatment and
enforcement, planning , evaluation, technology improvement, and crime
victim and witness initiatives.

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, reasonable, and in accordance with
applicable laws, regulations , guidelines, and the terms and conditions of the
grants. We also assessed Hartford 's program performance in meeting grant
objectives and overall accomplishments. The following table shows the total
funding for the grants.

                COPS Hiring Recovery and OJP JAG Grants 

                          Hartford, Connecticut 


   Grant Number           Start Date         End Date        Amount
  2009-RK-WX-0191         07/ 1/ 2009       06/30/20 12     $ 4 265 672
  2009-SB-B9-1792         03/ 1/ 2009       02/28/2 013     $ 1,529,576
  2009-DJ-BX-1463         10/ 1/ 2008       09/30/20 12     $   357,728
  2007-DJ-BX-0868         10/ 1/ 2006       09/30/20 10     $   342,052
       Total:                                              $6,495,028
Source. COPS

The Office of Community Oriented Policing Services

      The Office of Community Oriented Policing Services (COPS), within the
Department of Justice, assists law enforcement agencies in enhancing public
safety through the implementation of community policing strategies in


                                     - 1­
jurisdictions of all sizes across the country. COPS provides funding to state,
local, and tribal law enforcement agencies and to other public and private
entities to hire and train community policing professionals, acquire and
deploy cutting-edge crime-fighting technologies, and develop and test
innovative policing strategies.

Office of Justice Programs

      The mission of the Office of Justice Programs (OJP) is to increase
public safety and improve the fair administration of justice across America
through innovative leadership and programs. OJP works in partnership with
the justice community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

Bureau of Justice Assistance

       The mission of the Bureau of Justice Assistance (BJA), a component of
OJP, is to provide leadership and services in grant administration and
criminal justice policy development to support local, state, and tribal justice
strategies to achieve safer communities. BJA has three primary component
offices: Policy, Programs, and Planning. The Policy Office was established to
provide national leadership in criminal justice policy, training, and technical
assistance to further the administration of justice. It also acts as a liaison to
national organizations that partner with BJA to set policy and help
disseminate information on best and promising practices. The Programs
Office works to coordinate and administer all state and local grant programs
and acts as BJA's direct line of communication to states, territories, and
tribal governments by providing assistance and coordinating resources. The
Planning Office works to coordinate the planning, communications, budget
formulation and execution, and provide overall BJA-wide coordination.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government



                                      - 2 - 
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to the COPS
Office for grants to state, local, and tribal governments to hire or retain
police officers.

COPS Hiring Recovery Program

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers. The
grants were competitively awarded based on data submitted by each
applicant related to fiscal and economic conditions, rates of crime, and
community policing activities.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

       The Byrne JAG (JAG) program is the primary provider of federal
criminal justice funding to state and local jurisdictions. Recovery Act JAG
funds supported all components of the criminal justice system, from multi-
jurisdictional drug and gang task forces to crime prevention and domestic
violence programs, courts, corrections, treatment, and justice information
sharing initiatives. These JAG funded projects are intended to address crime
by providing services to individuals and communities, and the projects were
designed to improve the effectiveness and efficiency of state and local
criminal justice systems. OJP awarded these Recovery Act JAG grants based
on a state’s share of the national population as well as the state’s share of
violent crime statistics. Local governments received direct funding that was
based on the local government’s share of total violent crime within their
state.




                                     - 3 - 
City of Hartford, Connecticut

      The city of Hartford is located in Hartford County and is the capital of
Connecticut. The Hartford Police Department’s approved budget in fiscal
year (FY) 2012 was $36,563,787, and at the time of the grant application,
the Hartford Police Department had a budgeted sworn force strength of
482 officers.

      According to Hartford’s CHRP grant application, Hartford consists of
17 separate neighborhoods that present a diverse array of law enforcement
challenges for the Hartford Police Department. Hartford's urban core is
ranked as the fourth poorest economy in the nation. Many of the leading
predictors of crime are prevalent in Hartford including poverty, poor
education, and lack of opportunity. In addition, Hartford is, per capita, the
leading drug crime jurisdiction in New England.

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the awards. Unless otherwise stated in our report,
we applied the 2009 CHRP Grant Owner’s Manual (Grant Owner’s Manual),
the OJP Financial Guide, and the specific terms and conditions of each grant
award as our primary criteria during our audit. We also considered
applicable Office of Management and Budget (OMB) and Code of Federal
Regulations (C.F.R.) criteria in performing our audit. We tested Hartford’s:

      	 CHRP application statistics to assess the accuracy of key
         statistical data that the grantee submitted with its CHRP application.

      	 Internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard award funds and ensure compliance with the terms and
         conditions of the awards.

      	 Salary and fringe benefit expenditures to determine whether
         the salaries and fringe benefits charged to the awards were
         allowable, supported, and accurate.

      	 Budget management and control to determine whether Hartford
         adhered to the COPS and OJP-approved budgets for the expenditure
         of grant funds.




                                     - 4 - 
     	 Reporting to determine if the required periodic Federal Financial
        Reports, Progress Reports, and Recovery Act Reports were
        submitted on time and accurately reflected award activity.

     	 Drawdowns (request for grant funding) to determine whether
        requests for reimbursements were adequately supported and if
        Hartford managed grant receipts in accordance with federal
        requirements.

     	 Compliance with other award conditions to determine whether
        Hartford complied the terms and conditions of the grants.

     	 Program performance and accomplishments to determine
        whether Hartford achieved grant objectives and to assess
        performance and grant accomplishments.

      Where applicable, we also test for compliance in the areas of indirect
costs and matching funds. For the four grants, there were no indirect costs
approved, and matching funds were not required.




                                    - 5 - 
                                    FINDINGS AND RECOMMENDATIONS

             We found Hartford (1) submitted inaccurate or unverifiable
             data on its CHRP grant application; (2) charged unallowable
             duplicate expenses to the grant; (3) maintained no support
             for JAG Progress Reports; (4) submitted inaccurate Federal
             Financial Reports; (5) used a flawed process to drawdown
             CHRP grant funds; and (6) did not minimize cash on hand.
             These conditions, including the underlying causes and
             potential effects on the grants, are discussed in the body of
             the report.

CHRP Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate.1 As
a result, some agencies may have received grant funds based on inaccurate
applications. However, we were unable to determine the number of
applications that included inaccurate data.

      During this audit, we obtained documentation from Hartford to support
the information it submitted to COPS to secure the 2009 CHRP grant and we
found inaccuracies in or a lack of supporting documentation for the
information submitted in the CHRP application. Specifically, we found
inaccuracies in seven of the FBI Uniform Crime Reports statistics reported
for 2008. In addition, Hartford was unable to provide supporting
documentation for an additional 10 data items including, Locally Generated
Revenue (2007 and 2009), Law Enforcement Reduced through Lay-offs (3
categories), and Law Enforcement Reduced through Official Policies (3
categories).
                                                       
             1
         U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).


                                                          - 6 - 
      Hartford officials explained that the data was gathered and submitted
by staff members who left no supporting documentation or analyses. As a
result, they were unable to validate some of the numbers submitted in the
CHRP grant application.

       Because the application information was used to determine the
grantee’s eligibility to receive the grant, we analyzed the effect of the seven
inaccurate data elements that Hartford submitted in its application. We
determined that the inaccurate data did not appear to have affected the
suitability of the award; therefore, we do not question the award of the
CHRP grant to Hartford. However, because the data that grantees submit
are relied upon to award substantial grants, we believe it is vital that
grantees ensure that the data and information submitted to awarding
agencies is accurate. Because future inaccurate data may have a substantial
effect on award decisions, we recommend that Hartford enhance its
procedures regarding future grant applications.

Internal Control Environment

      Our audit included a review of Hartford’s accounting and financial
management system and Single Audit Reports to assess the risk of non-
compliance with laws, regulations, guidelines, and the terms and conditions
of the grant. We also interviewed management staff from the organization,
performed payroll and fringe benefit testing, and reviewed financial and
performance reporting activities to further assess the risk.

      According to the OJP Financial Guide, grant recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls. An acceptable internal control system provides cost
controls to ensure optimal use of funds. Grant recipients must adequately
safeguard funds and ensure they are used solely for authorized purposes.

      While our audit did not assess Hartford’s overall system of internal
controls, we did review the internal controls of Hartford’s financial
management system specific to the administration of grant funds during the
periods under review.

Financial Management System

      The Code of Federal Regulations (C.F.R.) requires recipients to
maintain records to adequately identify the source and application of grant
funds provided for financially supported activities. These records must
contain information pertaining to grant awards and authorizations,


                                     - 7 - 
obligations, unobligated balances, assets, liabilities, outlays or expenditures,
and income.

      Hartford used two systems for financial management during the period
audited, SmartStream and MUNIS. JAG grant number 2007-DJ-BX-0868
was partially administered using SmartStream. In 2008, Hartford began
using MUNIS. All four grants were, at least partially, administered using
MUNIS.

      We found that Hartford maintained these records in four separate
accounts, one for the CHRP grant and one for each of the JAG grants. We
determined that the accounts tracked obligations, outlays, and expenditures
allocated to each project. However, we found financial reporting issues
discussed later in the “Reporting” section of this report.

Salary and Fringe Benefits Expenditures

      We found that Hartford correctly charged the entry-level salary
amount approved in the grant budget for each CHRP grant-funded officer.
However, we found that Hartford overcharged the grant for fringe benefit
costs for its CHRP grant. For the JAG awards, Hartford correctly charged the
grants for police officer overtime and most other grant approved expenses,
however, Hartford charged unallowable supplies to one JAG grant.

      We tested a judgmental sample of Hartford’s salary, fringe benefit,
and overtime expenditures to determine if they were allowable, supportable,
and accurate. To determine if expenditures were allowable, we compared
the types of expenditures charged to the grant to those approved in the
terms and conditions of the grants. To determine if expenditures were
supported and accurate, we tested salary, benefit, and overtime
expenditures by evaluating the allocations of salaries, benefits, and overtime
based on the requirements identified by COPS and OJP in the respective
award documents.

COPS Hiring Recovery Program Grant

      According to the CHRP grant application and award documentation, the
CHRP grants were intended to provide 100-percent funding for the approved
entry-level salaries and fringe benefits of full-time sworn career law
enforcement officers. In cases where the officer’s salary and fringe benefits
exceeded that of entry-level officers, the additional costs were the
responsibility of the grantee.




                                      - 8 - 
       We found Hartford officials segregated grant-funded expenditures into
separate accounts. T he Hartford Police Department used time cards to track
officers' time worked, and grant-funded officers' time cards are annotated
with the grant name and reviewed by a supervisor. Police Department staff
enter the data into their financial management system using an accounting
code for a grant. T he data is then processed by the City of Hartford's payrol l
department.

      Hartford 's CHRP award included an approved fringe benefit rate of
36. 18 percent. This rate included Medicare, health insurance, life insurance,
retirement, Workers' Compensation, and unemployment insurance. In the
segregated accounting records, Hartford established separate accounting
codes to ensure only approved benefits were reported in the account .
However, Hartford still included unallowable expenses as part of the payrol l
and computed unallowable fringe benefits on the unallowable payroll
amount.

       To determin e w hether Hartfo rd accurately ca lculat ed and alloca ted th e
frin ge benefit cost s t o th e CHRP grant, we tested th e first 2 yea rs of th e
grant's cha rg es cove rin g Dece mber 12, 2009 , t o Ap ril 3, 2012. We f ound
th at Hartfor d overchar ged the gr ant $ 14, 160 . Th e fo llowing t abl e shows the
char ges in each ca teg o ry :

              Hartford's CHRP Expenses As of April 3, 2012


                                                    OIG
           Expense               Actual         Calculated
                                                                  Difference
           Category             Charges         Allowable
                                                 Charges

             Sa lar y          $ 2 313 051       $ 2,313 ,051       $        0
        Fring e Benefits           84008 5           836862             3 22 3
           Wo rker s'
                                      8 ,908                  0         8 ,908
        Compensation
             Socia l
                                      2 ,029                  0         2, 0 29
       Security/ Med ica re
                      Total    $3,164,073        $3,149,913         $14,160
      Source. OIG AnalysIs

      Hartford charged $8,908 in Workers' Compensation and $2,029 in
Medicare expenses as a direct charge to the grant and duplicated the charge
as part of the fringe benefit rate. Hartford correctly excluded the Medicare
charge from the payrol l amount used to calculate the fringe benefit expense


                                        - 9 ­
to be charged to the grant. However, Hartford incorrectly included $8,908
of Workers’ Compensation expenses in its payroll amount. The Workers’
Compensation expenses were also subject to the fringe benefit rate of
36.18 percent resulting in an additional $3,223 in unallowable fringe
benefits. As a result, we questioned $14,160 in unallowable fringe benefit
expenses. However, Hartford provided documentation demonstrating that it
removed the $2,029 Medicare and the $8,908 Workers’ Compensation
duplicate charges from the grant and those expenses are now charged
against Hartford’s General Fund. As a result, we question the remaining
$3,223.

      Hartford agreed with our findings and determined that these were
errors to grants that were mischarged early in the grant but were never
corrected. According to a Hartford official, these mischarges were due to a
less experienced official, without experience in managing a grant of this
complexity, mistakenly charging the grant for unallowable items. In
addition, the official added that highlighting this issue as a result of our audit
has caused the Hartford officials to check other grants for similar
mischarges.

Office of Justice Programs Byrne Memorial Justice Assistance Grants

      According to the JAG applications and award documentation, the JAG
awards were to pay for overtime expenses for police officers for various law
enforcement activities. Grant number 2007-DJ-BX-0868 also was also used
to pay for training of Hartford Police Department’s Crime Analysis staff
($10,000) and (2) truancy incentives (pizza party, plaques) ($10,052).

      We found that Hartford correctly charged the police officer overtime
and most other approved items in the grant budgets. However, we found
that Hartford charged $1,259 in supplies to the grant and we questioned
that charge. During our audit, Hartford provided documentation
demonstrating that they backed out the charge from the grant and properly
charged the expense to the city’s General Fund. We concluded that the
issue has been adequately corrected.

      We verified the accuracy of the base salary, overtime rate, overtime
worked; that the overtime charges were accurately recorded in the
accounting system; and that supervisors approved the time cards tested.
Based on our review of payroll records, personnel data, and our verification
of Hartford’s accounting methodology, we concluded that Hartford officials
met the terms and conditions of the JAG awards for accurately reporting
overtime expenditures.



                                      - 10 - 
Other Grant Expenditures

      Hartford created separate cost centers within their accounting system
to segregate and specifically track expenditures made for each of the four
grants. Hartford charged 19 non-salary transactions totaling $23,526 to the
2007 JAG award. The 19 transactions included expenditures for conference
registration, bus transportation, and uniforms. We reviewed the
19 transactions to determine if the transactions were properly recorded,
allowable, and supported. To determine if the expenditures were properly
recorded, we verified that amounts from Hartford’s accounting system
matched the budgeted amounts. To determine if expenditures were
allowable, we compared the expenditures to the award budget, permissible
uses of funds outlined in the OJP Financial Guide, and the terms and
conditions of the awards. To determine if expenditures were supported, we
reviewed purchase documents, invoices, and accompanying accounting
system data. We found that all transactions were properly recorded,
allowable and supported.

Budget Management and Control

       Criteria established in 28 C.F.R § 66.30 addresses budget controls
surrounding grantee financial management systems. According to the
C.F.R., grantees are permitted to make changes to their approved budgets
to meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. Budget
management controls ensure federal funds are not exposed to unauthorized
expenses, misuse, and waste.

       COPS approved an itemized budget for the CHRP grant that included
budget categories for salary and fringe benefits. OJP approved a budget for
the JAG awards for police officer overtime, training, and truancy incentives.
While the CHRP grant was still in progress at the time of our audit; as of
April 3, 2012, Hartford remained within the approved budget allowance for
each category for this grant.

Reporting

Federal Financial Reports

      The financial aspects of the grants we reviewed were monitored
through Federal Financial Reports (FFRs). FFRs are designed to describe the
status of grant funds and should be submitted within 30 days of the end of
the most recent quarterly reporting period. Funds for the current award or


                                    - 11 - 
fut ure awards may be wi thh eld if repo rts are not subm itted or are
excessive ly late .

        Hartford officials to ld us they co mpleted FFRs using qua rterly reports
fro m thei r account ing system . We sa mpled 10 CHRP gra nt FFRs between
Dece mber 3 1, 2 009 and March 3 1, 20 12 . We co nclu ded t wo of th e re ports
tested we re accurate beca use each proj ect's total expend itures reported in
the FFR agreed with , or was less th an, t he totals reported in Ha rtfo rd 's
accounting records. Th e re maining eight FFRs were inaccurate due to
Hartford's adding cumulative totals to pri or quarte r's cumu lative total,
overstating expenditu res for t he quarter, incl uding unallowa ble dupl ica t ive
charges and oth er misca lculati ons during atte m pts to correct previous
erro rs. As of March 3 1, 201 2, Ha rtford had corrected t he cumulat ive
di fferences betw een t he FFRs and its account ing records. We have
summarized the differences between the FFRs and Hartfo rd 's accountin g
records for th e CHRP grant.

         Federal Financial Report Accuracy Determination for CHRP
                                Grant

                                              Cumulative
                                             Expenditul"es
            Report          Cumulative           (Pel"
            Quartel"       Expenditul"es      Accounting
          Endino Date       (Per FFRI          Recol"ds)  W
                                                                  Difference
           12/ 3 1/ 2009         $57,777              $4 2,820         $ 14,957
           3/ 3 1/ 20 10        $339,689            $2 51 ,47 1        $88,2 18
           6/ 30/ 20 10         $637 540            $6 50884        ($13 344
           9/ 30/ 20 10        1,3 57,2 14          $902,398           454 ,8 16
           12/ 3 1/ 2010       2,001, 132        $ 1, 164,74 3         836,389
           3/ 3 1/ 20 11       2,305,039         $ 1,406,870           898, 169
           6/ 30/ 20 11       $2 675 07 1        $2 2 19 263         $455 808
           9/ 30/ 20 11       $2,675,071         $2,470,090          $204 ,98 1
           12/ 3 1/ 2011      $2,773,874         $2,750,723            $23, 15 1
           3/ 3 1/ 20 12      $3,046,0 10        $3, 164,074       ($ 118,064
        Source . Hartford Pollee Department an d COPS

      We also tested each FFR for t imeliness using th e criteria noted above
and w e fo und Hartford su bmitted al l 10 FFRs t imel y .

      For the JAG award s we tested , 12 FFRs covered financial acti vity
bet ween Ju ly 1, 2009 and March 31, 20 12. We fo und Ha rtford subm itted al l
12 FFRs t imel y and each report was accurate .




                                       - 12 ­
Progress Reports

       COPS established a quarterly requirement for CHRP progress reports.
The reporting requirements included a survey that required recipients to
report the number of jobs created or saved by grant funding and a self-
assessment of the recipient’s progress toward meeting its community
policing goals, although COPS did not require the recipients to maintain
documentation to support the self-assessment of community policing goals.
We sampled the last four progress reports submitted by Hartford and each
progress report was within the required time period specified by COPS. In
addition, each report included all of the required reporting elements. We
concluded that Hartford met the CHRP progress reporting requirement.

       The OJP Financial Guide established an annual progress reporting
requirement for JAG awards. The reports were due no later than December
31 of each year. We reviewed nine JAG progress reports Hartford
submitted, covering the periods October 1, 2006 through
September 30, 2011, and found Hartford submitted each progress report
within the required time period specified by the OJP Financial Guide.
However, Hartford did not maintain documentation supporting the
information listed in the JAG progress reports. According to a Hartford
official, Hartford was not made aware that it was required to report on the
progress made in achieving grant goals until October 2011. In addition, the
accounting system could not identify the division or program where an
officer incurred the overtime charged to the grant and the overtime would
have to be verified manually from time cards for 3 years.

      As a result, without the supporting information, we were unable to
verify whether the information in its JAG progress reports were accurate.
The reports included: (1) goals and accomplishments as they relate to the
grant and (2) crime statistics that officials believed were impacted by the
grant. We concluded that Hartford did not meet the JAG progress reporting
requirement.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding are required to submit quarterly reports that include
both financial and programmatic data. The Recovery Act requires recipients
to submit their reporting data through FederalReporting.gov, an online web
portal that collects all the reports. Recipients must enter their data no later
than the 10th of the month after each quarter beginning September 30,
2009.



                                     - 13 - 
      Hartford was responsible for submitting seven CHRP and three JAG
Recovery Act reports during the period of review. We examined 10 quarterly
reports and we found officials submitted 9 of the 10 reports in a timely
manner. One JAG report was submitted 12 days late, but we did not
consider this to be significant. Because Hartford officials generally submitted
each of the reports we tested within the required timeframe, and because
the reports included all of the required performance elements, we concluded
Hartford met the Recovery Act reporting requirements.

Drawdowns

      Drawdown is a term used to describe a recipient’s request for
reimbursement of grant-related expenditures. The OJP Financial Guide
establishes the methods by which the Department of Justice makes
payments to grantees. Advances are allowed, but non-formula grant
funding must be used within 10 days of receiving funds. To determine if
drawdowns were completed in advance or on a reimbursement basis, we
interviewed grant officials and reviewed documentation supporting the actual
expenditures. We determined grant funds for the three JAG grants were
requested on a reimbursement basis. However, for the CHRP grant,
Hartford drew down funds in excess of incurred allowable expenses and the
excess funds were not spent within the required 10 days.  While there is no
interest penalty for not immediately using the funds, the federal government
incurred interest costs to provide this money to Hartford without the funds
being expended, and is indicative of a flawed drawdown process.

      COPS Hiring Recovery Program Grant

      At the time of our field work, Hartford had drawn down $3,046,010 of
the $4,265,672 total CHRP award. We examined nine drawdowns made
between February 16, 2010 and April 3, 2012. Hartford used a segregated
accounting code for the CHRP grant to establish the amount of funding
requested for each drawdown. According to a Hartford official, drawdowns
were made on a reimbursement basis at or near the end of the calendar
quarter. However, we found that Hartford had received advanced grant
funds in excess of expenses.

      We also found that Hartford had an inadequate drawdown process for
the CHRP grant. A Hartford official prepared FFRs and drawdown requests at
the end of each quarter using year-to-date information that was retrieved
from Hartford’s financial system. The responsible Hartford official explained
that he was inexperienced in the job and mistakenly used the cumulative
year-to-date amount instead of the quarterly expenses as the requested
reimbursement amount. As a result of this error Hartford drew down excess


                                    - 14 - 
funds in four of the nine drawdown requests and maintained excess funds in
its bank account for over a year. We provided Hartford a recommendation
to address these deficiencies.

Office of Justice Programs Byrne Memorial Justice Assistance Grants

      At the time of our field work, Hartford had drawn down the entire
$2,214,707 for the JAG grants. We examined 17 drawdowns Hartford made
between August 1, 2008 and April 6, 2012. We determined that Hartford
correctly based JAG grant drawdowns on actual expenditures for the period.

Compliance with Award Special Conditions

      Award special conditions are included in the terms and conditions of a
grant and special conditions may be added to address special provisions
unique to an award. To ensure job growth or job preservation, the Recovery
Act stipulated that grant funds should be used to supplement existing
funding and not supplant, or replace, funding already appropriated for the
same purpose. The CHRP grant also required recipients to plan to retain all
sworn officer positions funded by the award for 1 year after the grant ended.
Our analysis showed that Hartford generally complied with the special
condition requirements for the CHRP award.

Supplanting Analysis

      During our audit, we completed an analysis of the number of jobs
Hartford created with Recovery Act funding through the grant, examining
the potential for supplanting.

       Hartford received CHRP funding to hire 23 full-time uniformed officer
positions. To eliminate the potential for supplanting after a recipient
receives funding, the recipient is expected to maintain its local budget for
sworn officers during and after the period of the grant. Since the grant was
active at the time of our field work, we examined the Hartford Police
Department’s budget and the number of sworn officers or full-time
equivalents (FTEs) during the 2008-2011 budget years.




                                   - 15 - 
                        Hartford Police Department
        Fiscal Years 2008 to 2011 Total General Fund Funding
              Adopted Budgets and Full-time Equivalents

          Fiscal              Total                Planned    Actual
          Year                Budget                 FTEs      FTEs

            2008             $37,235,766             525         511

            2009             $37,993,999             559         524

            2010             $36,528,537             520         508

            2011             $39,261,018             516         497
    Source . Hartford Police Department

       In addition to remaining within the approved budget allowance,
Hartford must ensure it does not supplant local funds with grant funds.
According to the Grant Owner's Manual , grant recipients may not reduce
their locally-funded number of sworn officer positions during the 3-year
CHRP grant period as a direct result of receiving the CHRP funding to pay for
additional officers. Reductions in locally-funded sworn officer positions that
occur for reasons unrelated to the CHRP funding - such as city-wide budget
cuts - do not violate the non-supplanting requirement, but recipients must
maintain documentation demonstrating the date( s) and reason(s) for the
budget cuts to prove that they were unrelated to the receipt of CHRP grant
funding in the event of an audit, monitoring site visit, or other form of grant
compliance review.

      We reviewed Hartford 's funding strength for FYs 2008 through 2011 to
determine if Hartford reduced its funding strength as a result of receiving
grant funds. We found that Hartford 's funding strength for officers was
reduced by 39 from 559 in FY 2009, and to 520 in FY 2010 and then to 516
in 2011. According to documentation we reviewed, the reduction in funding
strength was a result of economic distress that had an adverse effect on the
budgets and staffing levels of the city's various agencies, including the police
department. Because of the economic distress on the city, and other city
agencies being asked to reduce staffing, we concluded that this reduction did
not constitute a violation of the non-supplanting requirement.




                                          - 16 ­
Retention Planning

       At the end of the CHRP grant, recipients are expected to retain grant
funded officers by adding local funds to their projected budgets. The number
of officers retained should be over and above the number of positions that
would have existed in the absence of the grant.

      During budget hearings at the time of application, Hartford officials
stated the requirement to retain grant funded officers with local funding.
Since the grant has not ended, we reviewed both the FY 2011 and 2012
department budgets and found the city included local funding to retain the
grant funded officers.

Program Performance and Accomplishments

       In the CHRP Application Guide, COPS identified the methods for
measuring a grantee's performance in meeting CHRP grant objectives.
According to COPS, there were two objectives to the CHRP grant: (1) to
increase the capacity of law enforcement agencies to implement community
policing strategies that strengthen partnerships for safer communities and
enhance law enforcement's capacity to prevent, solve, and control crime
through funding additional officers; and (2) to create and preserve law
enforcement officer jobs. Quarterly progress reports describing how CHRP
funding was being used to assist the grantee in implementing its community
policing strategies and detailing hiring efforts were to be the data source for
measuring performance. However, COPS did not require grantees to track
statistics to respond to the performance measure questions in the progress
reports. In addition, the grantee’s community policing capacity
implementation rating, identified in the progress report, would not be used
in determining grant compliance.

       Even though COPS did not require a grantee to track statistics to
support its performance, it does require a grantee to be able to demonstrate
that it is initiating or enhancing community policing in accordance with its
community policing plan. According to Hartford’s community policing plan,
Hartford did not plan to initiate new community policing strategies but
planned to enhance community policing in two areas: (1) routinely
incorporating problem-solving principles into patrol work, and (2)
systematically tailoring responses to crime and disorder problems to address
their underlying conditions. According to Hartford officials, it has enhanced
the use of its problem-solving principles in patrol work by incorporating more
training and promoting more community-partnerships. In addition, Hartford
increased its focus the past few years in working with Project Safe



                                    - 17 - 
Neighborhoods and the Violent Crime Impact Team joint task force to
combat gun violence and firearms violations in Hartford.

        Hartford has initiated several community policing strategies that
provide enhanced neighborhood and needs-based community policing
services. The additional patrol officers will improve enforcement and
prevention in these disparate neighborhoods, which provide such extreme
contrasts in economic and demographic diversity. One strategy that
Hartford has adopted is the "Hot Spot Enforcement Program." This program
tracks epicenters of gun violence and other criminal activities in the
community such as robbery, burglary and assault in order to concentrate its
efforts in areas where criminal activity is elevated. The purpose of this
initiative is to reduce violent crime, to increase citizen safety, to reduce calls
for service and to provide a visible police presence. We concluded that
Hartford was meeting the community policing objective of the grant.

Conclusions

      We found that Hartford did not meet all of the terms and conditions for
the CHRP grant and the JAG grants we reviewed. We found that Hartford
did not maintain supporting data for some of its CHRP application data
elements or its progress reports; drew down funds in excess of its
immediate needs; charged unallowable fringe benefits to the grant; and
submitted inaccurate FFR reports for the CHRP grant. As a result, we make
six recommendations to address these findings.

Recommendations

We recommend that COPS:

1.	   Ensure Hartford enhances its procedures to ensure it submits accurate
      and auditable data for future award applications.

2.	   Remedy the $3,233 in unallowable fringe benefit charges to the CHRP
      grant.

3.	   Ensure Hartford enhances its procedures for ensuring that all costs
      charged to the grant are allowable and fully supported.

4.	   Ensure Hartford has a process to ensure that future grant administrators
      receive adequate training before assuming grant management duties.




                                      - 18 - 
5.	   Ensure Hartford accurately determines from its financial system the
      funds to be drawn down to minimize excess cash on hand and submits
      accurate financial reports.


We recommend that OJP:

6.	   Ensure Hartford maintains documentation to adequately support its JAG
      progress reports.




                                    - 19 - 
                                                             APPENDIX I 


           OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of our audit was to determine whether reimbursements
claimed for costs under four grants were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed grantee program performance in
meeting grant objectives and overall accomplishments. We reviewed
activities in the following areas: (1) application statistics, (2) internal
control environment, (3) personnel and fringe benefit expenditures,
(4) grant expenditure, (5) drawdowns, (6) budget management and control,
(7) reporting, (8) compliance with grant requirements, and (9) program
performance and accomplishments. We determined that indirect and
matching costs were not applicable to these grants.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited COPS Hiring Recovery Program Grant number 2009-RK-
WX-0191 and Office of Justice Programs (OJP) Grant numbers 2009-SB-B9-
1792, 2009-DJ-BX-1463, and 2007-DJ-BX-0868. The grantee had requested
a total of $5,260,717 in grant funding through April 6, 2012 for the four
grants.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against are contained in the 2009 COPS Hiring Recovery
Program Grant Owner’s Manual, 2009 OJP Financial Guide, and grant award
documents.

       In conducting our audit, we performed testing in three areas: payroll
and fringe benefit charges, Progress Reports, and Recovery Act Reports. In
this effort, we employed a judgmental sampling design to obtain broad
exposure to numerous facets of the grant reviewed, such as unique payroll
and fringe benefits adjustments throughout the year. This non-statistical
sample design did not allow projection of the test results to the universe
from which the samples were selected.

      In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports, Progress Reports, and Recovery Act Reports; and


                                   - 20 -
 


evaluated performance to grant objectives. However, we did not test the
reliability of Hartford’s financial management system as a whole. We tested
the reliability of the information in the accounting system during the payroll
verification testing. We traced a sample of the information in the accounting
system to supporting documentation and found the information to be
reliable.




                                    - 21 -
                                                                            APPENDIX II 

 
             SCHEDULE OF DOLLAR-RELATED FINDINGS 


QUESTIONED COSTS2:                                            AMOUNT                  PAGE

Unallowable Expenditures                                              $3,223              10

TOTAL QUESTIONED COSTS:                                              $ 3,223

TOTAL DOLLAR-RELATED FINDINGS:                                       $ 3,223




                                                       
             2
                 Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.  


                                             - 22 -
                                                                                           APPENDIX III

                                                                                                        

                  CITY OF HARTFORD 

          RESPONSE TO THE DRAFT AUDIT REPORT 


                                       CITY OF HARTFORD
                                       DEPARTMENT OF FINANCE
                                         550 Main STreet - Suik .103
                                        HUfford, Conne<:ticu! 06103
l'EDRO E. SEGARRA                                                                          J ULIO MO LLEDA
                                             P: (B60) 757-9600
     MAYOR                                   £1: (860) 722-6571
                                                                                             Director of Finan""
                                             www.hanfortl.gov



  Fehruary 13,2013

  Mr. Thomas O. Puerzer
  Regional Audit Manager
  Philadelphia Regional Audit Oillec
  Office uflhe Jnspedor Gem:nd
  U.S. Department of Justice
  701 Markel Street, Suite 201
  Philadelphia, PA 19106
  Via Electronic Mail and U.S. Mail

  Dear Mr. Puerzer,

  Below arc the City of Hartford's responses to your <iralt audit report relating to the recent audit on the
  Community Oriented Policing Services (COPS) Hiring Recovery Program (CARP) Grant Number 2009-
  RK-WX-0191 and Officc of JUHlice Programs (OlP) Grant Numbefll 2009-58-B9-1792, 2009-Dl-BX-1463,
  and 2007-DJ-BX-OX68 1111 ufwhich were awarded to the City of Hartford,

  Recommendations (COPS):

  Recommendation I: Ensure Hartlord enhances its procedures to ensllf'C it submits accurate and auditable
  data for future award applications_

  RespoNIf~:  We concur wi th this recOlllmendation. The City of Hartford has drafted a General Order wroch
  outlines tbe policies and proccdurc.~ to be followed going forward. A copy of the draft General Order is
  attached.

  Recomme ndation 2: Rcmedy the $3,233 in unallowable fringe benefit charges to the CHRP grant.

  Re.lpo".\'C: We do not concur with Ihis recommendation. Worker's Compensation ExpcllSe in the amount of
  $8,908.30 was charged in elTOT to the gran t and fringe benefit was calculated on tbat amount at a rate of
  36.18% to arrive at the unallowabtecharge 01'$3,223.08. < C ity has since removed the Worker's
                                                              tbe
  Compensation Expense of$8,908.30 from the grant and has tr.msfern:d it 10 its General Fund Account. A
  ~)py of the adjusting General 10UOlal i8 attached, The City has aloo adjusted its most recent draw down
  request reducing it by $3,223 .08 and $R,908.30 to account for the reduction of expenses against the grant.
  Accordingly, no rcmedy is necessary.

  Recommcndation 3: Ensure Hartford enhances ils procedures for ensuring that all costs charged to the
  gra nt arc allowable and fully supported.

  Rf[5po"se: We concur with this recommendation. The City of Hartford has drafted a General Order which
  outl incs the policies and procedures to be followed going IOlward. The City has abo removed all
  disallowahlc ~)sls from the grant.




                                                   - 23 -
 



                                               e rlY OF HARTFORD
                                               DEPARTMENT or MNANCE
                                                   550 M.ln Street - Suite 30)
                                                 I'h'-Iford, Connectiau 0610l
    P ED RO E. SRGARRA                                                                                JUlJO MOlJ£DA
                                                       p , (860) 757 9600
          MAYOR                                                                                        Director of Finance
                                                       (1,   (860) 722-657.
                                                       WWW.hll1{Ord.gov



      Rec:ommClld al iflll 4: Ensure Han fo rd bas a process to ensure thai [utu.rc grant administrators receive
      adequate tm ining before assuming grant management dulies.

      Response: We concur wi th. thi s recommendation. The Ci ty of H:1l1ford has dra fted a General Order which.
      outlines the pol icies lind procedures to be followed goi ng forw ard.

      Rccommc ntl atlgll :; : Ensure Ha rtfo rd accura tely detennin es from il~ financi al system the fwlds to be
      draw n down to m inim ize excess cash on hand ond subm its accu mtc finaocial reports.

      Re.~pom;e: We conc ur wi th this recommendation. 100 Ci ty of J-la rtford has d rafted a General Order which
      o utlines the policies and procedures \0 be followed goi ng forward. A lso, all future dmwn down requesL~
      will be reviewed a nd approved by the Finance IlI,:partmcnl before submiss.ion.

      Rec olll w e nd a tio ns (OJP):

      Reco mme ntl nli oll 6: Ensure Ha rtford mainlainM documentatIo n 10 adequately    ~upport   its JAO progress
      reports.

      Resp(JII.~e: We concur wi tb this recomm enda tion. T ht: C ity of Ha rt foro has arafied a Gen(;1111 Order which
      o udilles the policies and procc:durc.~ 10 be foll uwed going forward.

      We believe lhe Qoove responses adequately add ress QII recommendations.




     ~Leigh AlUl Rall s
      Ac:ting Deputy Fi nance Director
      City of Hartford


      Ce:     M,. Linda Taylor
              Lead Aud itor
              Linda.laylor2@'yf40i.gQY

              Mr. Kart Bickel
              SCilior Policy Analyst
              Kul.nickcl41lumj,1.2X

              Mr. Jclli:ty A. Ib lcy
              Deputy Ditcetor. Audit and Review Di vision
              JcftHBieV@lIsdoj.goy

              Mr. l'cdro E, Scgtlrra
              Mayor. Cily of Hurl ford




                                                              - 24 -
 



                                                        CITY OF HARTFORD
                                                        DEPARTMENT O f FINANCE
                                                          550 M~;n Str<:<::t - Suitt: 303
                                                         H adford, Conne<;ticut 0610.1
    PEDRO E. SEGARRA                                                                        JULIO MOLLBDA
                                                               1': (l!60) 757·9600
        MAYOR                                                                                Director of Fiuance
                                                               F: (860) 722-6571
                                                               www.harr,for<lgov

           Mr. James Rovclla
           Chicfof Pol ie<:, City of Hartford

           Mr. Thomas I::kJwley
           Fiscal Matlal:~T, Hartford Pohce Department

           Mr. Julio Molleda
           Finance Di"",clor, City (of] IBr tf(t1"t:l




                                                                    - 25 -
                                                                                        APPENDIX IV 

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT 




                    u.s. DEPARTMENT OF J UST ICE
                    O FFICE OF COMMUN ITY ORIENTED POLICING SERVI CES
                    Gran[ Operations Directorate/ Aud iI Liaison Di \'ision
                                                                                    COPS
                    145 N S rrc~et, N.E .• Washington, DC 20530



                                               MEMORANDUM


    Via Email and u.s. Mail
    To:           Thomas O. Puerzer
                  Regional Audit Manager
                  Offi ce of the In spector General
                  Phil adelphia Regional Audit Office

    From:           Karl W. Bicke l
                    Senior Policy             Pzr
    Date:           February 19, 2013

    Subject:        Request for closure of Audit Recom mendations I through 5 of the Draft Aud it
                    Report dated January 25, 2013 for the Hartford Police Department, Hartford, CT,
                    OR] # CT0064.

             This memorandum serves as COPS' request for closure of Recommendations I through 5
    as wcl l closure of the CO PS Office portion of the Draft Audit Report dated January 25, 2013 fo r
    the Hartfo rd Police Department, regarding CO PS CHRP Hiring Grant # 2009-RK-WX-OI 9 1.


    Recommendation 1- [nsu re Hartford enhances its procedures to ensure it submits accurate
    and auditable data for future award applications.

    Status: Draji

    Discuss ion: The COPS Office agrees that grantees should maintain procedures to ensure they
    submit acc urate and auditable data for grant award appl ications. After reviewing your Report,
    COPS contacted the gran tee and it was agreed that the grantee would prepare and submit for O IG
    rev iew poli cies and proced ures covering accuracy of in formation contained in future grant
    applications.

    Actio n Taken: The Hartford Police Department has submitted their policy and procedure on
    Gran t Management (copy attached).

    Request: Based on the discussion and action laken, COPS requests closure of
    Reco mmendation 1.




                                                     - 26 -
 



    Thomas O. Puerzer, Regional Audit Manager, OIG
    February 19, 2013
    Page 2

    Recommendation 2- Remedy the $3,233 in unallowa ble fringe benefit charges to the CHRP
    gra nt.

    Status: Draft

    J)iscussion: COPS agrees that grantees should only charge all owable costs to their grants.

    Action Taken: Worker's Compensati on Expenses in the amount 0[ $8,908.30 were charged to
    the grant in error and fringe benefit was calculated on that amount at a rate of36. 18% to arri ve at
    the unallowable charge of $3,223.08. The city has since removed the Worker' s Compensation
    Expense of $8,908.30 from the grant and has transferred it to its General Fund Account. The city
    has also adjusted its most recent drawdown request by $3,223.08 and $8,908.30 to account for
    the reduction of expenses against the grant. A copy of the adjusting General 10umal is attached.

    Also attached is the grantee' s most recent SF-425 and a Payment History Report dated February
    14,201 3, both of which renect a reduction in the grantees latest drawdown. The reduction in the
    drawdown amount does not ren ect the exact amount to remedy this recommendation because
    more than one factor can contribute to the drawdown reduction and COPS is unable to separate
    them out.

    Request: Based on the discussion and action taken, COPS requests closure of Recommendation
    2

    Recommendation 3- Ensure Hartford enhances its procedures for ensuring that all costs
    charged to the grant are allowa ble and fully supported.

    Status: Draft

    Discussion: The COPS Offi ce agrees grantees should have procedures that ensure that all costs
    charged to grants are allowab le and fu ll y supported. After reviewing your Report, CO PS
    contacted the grantee and it was agreed that the grantee would prepare and submit for OIG
    review policies and procedures ensuring all costs charged lo the grant are allowable and fu ll y
    supported.

    Action Taken: The Hartford Police Department has submitted their policy and proced ure on
    Grant Management (copy attached).

    Request: Based on the discussion and action taken, CO PS requests cl osure of Recommendation
    3.

    Recommendation 4- Ensure Hartford has a process to ensure that future gra nt
    administrators receive adequate traini ng before assuming grant management duties.

    Status: Draji




                                                 - 27 -
 



    Thomas O. Puerzer. Regional Audit Manager, OIG
    February 19,2013
    Page 3

    Discussion: The COPS Office agrees grantees should have a process to ensure that future grant
    admin istrators receive adequate training before assuming grant management duties. After
    reviewing your Report, COPS contacted the grantee and it was agreed that the grantee would
    prepare and submit for OIG rev iew policies and procedures ensuring future grant adm inistrators
    receive adequate training before assuming grant management duties.

    Action Taken: The Hartford Poli ce Department has submitted their policy and procedure on
    Grant Management (copy attached).

    Request: Based on the discussion and action taken, CO PS requests resolution of
    Recommendation 4.

    Recommendation 5- Ensure Hartford accurately determines from its financial system the
    funds to be drawn down to minimize excess cash on hand and submits accurate financial
    reports.

    Status: Draft

    Discussion : The COPS Office agrees grantees should accurately detennine funds to be drawn
    down to minimize excess cash on hand and should subm it accurate financial reports. After
    reviewing your Report, COPS contacted the grantee and it was agreed that the grantee would
    prepare and submit for OIG review policies and procedures ensuring the financial system
    detennines funds to be drawn down minimize excess cash on hand and submit s accurate
    fin ancial reports.

    Action Taken: The Hartford Police Department has submitted their policy and procedure on
    Grant Management (copy attached).

    Request: Based on the discussion and action taken, COPS requests reso lution of
    Recommendation 5.


            Based on the abovc di scussion and acti on taken, CO PS considers the COPS portion of the
    subject Draft Audit Report closed and requests written acceptance of this determinat ion from
    your office. Once written acceptance of this determination is received from your office, CO PS
    will noti fy the grantee.

           Thank yo u very much. If you have any questions regarding thi s mcmorand um, please do
    not hesitate to contact me at (202) 5 14-59 14 or via email at KarLBickcl@usdoj.gov.


    Attachments:
           Letter from grantce dated 2/ 13/ 13
           Pol icy/procedure on Grant Management
          General Journa l adjustment




                                               - 28 -
 



    Thomas O. Puerzer, Regional Audit Manager, OIG
    February 19, 2013
    Page 4

          SF-425
          Payment History Report

    cc:   Audit Liaison Office (ALO@ usdoj.gov)

          Audit File

          Grant fil es:   2009-RK-WX-019 1


    OR1 # CT0064




                                             - 29 -
                                                                                        APPENDIX V

                                                                                                   

          OFFICE OF JUSTICE PROGRAMS 

      RESPONSE TO THE DRAFT AUDIT REPORT 



                                                    U.S. Dtpartmtnt or Justice

                                                    Office ofJustice Programs

                                                   Office ofAudit, A.fsessment, and Managemenl



                                                   W"'~""I<oII.   D.C. 11m/



     rEg 21 2013


MEMO RANDUM TO:               Thomas O. Pucrl.Cr
                              Regional Audit Manager
                              Phlladelphio Regional Audit Oflice
                              Office of the Inspector Gcneral

FROM:


SUBJECT:                      Response to the Draft Audit Report, A"dil oflhe Office of
                              Community Oriented Policing &n>iccs and Office ofJlMtice
                              Programs Grants Aware/cd 10 the CUy of Hartfortl. Connecticut

This memorandum is in response to your correspondence, dated January 25, 2013, transmitting
the subject draft audit report for the City of Hartford, Connecticut (H artford).

The draft audit report contains six recommcndations and S3,233 in questioncd costs, ofwhieh
one recommendation and no questioned costs are di rected to the Office of Justice Programs
(OJ I'). The five remaining recommendations and $3,233 in questioned costs are directed to the
Office of Community Oriented Policing Services. The following is OJ p's analysis of the draft
audit report rceorruncndatioll directed to our office. For elise of review, the recommendation is
restaled in bold and is followed by our response.

6.      \Ve recommend that OJP ensure that Hartford nlaintains documentation to
        adequately support its JAG progress reports.

        OJP agrees willi the recommendation. In ils response 10 the draft audit report, Hartford
        providcd a copy of procedures deve loped and implemented on February 15, 20 13, to
        ensure iliat doc umentation is maintained to support the activi ties included in its future
        progress reports for the Edward Byrne Memorial Justice Assistance Grant Program
        (see Attachment). OJP reviev.-ed the procedures, and delennined that they are adequate
        to add r(.·ss the recommendation. As such, the Office of Justice Programs requests closure
        o rlhis recommendation.




                                             - 30 -
 




    We appr«:iate the opportunity to review and comment on the draft audit report. If you have any
    questions or require additional infonnation. please contact Jeffery A. Haley, Deputy Director,
    Audit and Review Division, on (202) 016-2936.

    Attachment

    cc:    Jeffery A. Haley
           Deputy Director, Audit and Review Division
           Offiee of Audit, Assessment, and Management

           Tracey Trautman
           Deputy Director for Program~
           Bureau of Justice Assistance

           Amanda loCicero
           Budget Analyst
           Bureau uf Justice As~istance

           Linda Hill-Franklin
           Grant Progranl Specialist
           Bureau of Justice Assistance

           Marcia Samuels-Campbell
           Deputy Director, Operations
           Officc of Community Oriented Policing Serviccs

           Karl Dickel
           Senior Policy Analyst
           Office of Community Oriented Policing Services

           Richard P. Theis
           Director, Audit Liaison Group
           Internal Review and Evaluation Office
           Justice Management Division

           011' Executive Secretariat
           Control Number 20130079




                                                - 31 -
                                                          APPENDIX VI

                                                                      

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the City of Hartford
(Hartford), Office of Community Oriented Policing Services (COPS), and the
Office of Justice Programs (OJP) for review and comment. Hartford’s
response is included as Appendix III of this final report, COPS response is
included as Appendix IV, and OJP’s response is included as Appendix V. The
following provides the OIG analysis of the responses. Based on the OIG’s
analysis of the responses and the documentation Hartford provided, this
audit report is issued closed.

Recommendation Number

  1. Closed. Hartford and COPS concurred with our recommendation to
     ensure Hartford enhances its procedures to ensure it submits accurate
     and auditable data for future award applications.

     In its response and in additional documentation provided, Hartford
     demonstrated that it had implemented policies and procedures that,
     we believe, ensure accurate and auditable data for future award
     applications.

     This recommendation is closed based on Hartford’s implementation of
     new policies regarding award applications.

  2. Closed. COPS concurred with our recommendation to remedy $3,223
     in unallowable fringe benefit charges to the CHRP grant. 

     While Hartford stated that it did not concur with our recommendation
     in its response, this disagreement was due to actions already taken by
     Hartford to close the recommendation. Specifically, Hartford reduced
     its most recent draw down by $3,223 to account for the previously
     claimed unallowable charge.

     As the questioned costs were remedied, this recommendation is
     closed.

  3. Closed. Hartford and COPS concurred with our recommendation to
     ensure Hartford enhances its procedures for ensuring that all costs
     charged to the grant are allowable and fully supported.




                                   - 32 -
 


      In its response and with additional documentation, Hartford
      demonstrated that it had implemented policies and procedures for
      future grant charges and that it removed the unallowable costs from
      the grant.

      Based on Hartford’s actions, this recommendation is closed.

    4. Closed. Hartford and COPS concurred with our recommendation to
       ensure future grant administrators receive adequate training before
       assuming grant management duties.

      In its response and with additional documentation provided, Hartford
      demonstrated that it implemented policies and procedures, which, we
      believe, will ensure that grant administrators are properly trained.

      This recommendation is closed based on Hartford’s newly implemented
      policies and procedures.

    5. Closed. Hartford and COPS concurred with our recommendation to
       ensure that Hartford minimizes excess cash on hand and that financial
       reports are accurate.

      In its response and with additional documentation provided, Hartford
      demonstrated that it implemented policies and procedures to ensure
      that cash on hand is minimized and financial reports are accurate.

      This recommendation is closed based on Hartford’s newly implemented
      policies and procedures.

    6. Closed. Hartford and OJP concurred with our recommendation to
       ensure Hartford maintains documentation to adequately support its
       JAG progress reports.

      In its response and with additional documentation provided, Hartford
      demonstrated that it had implemented policies and procedures to
      ensure that documentation is maintained to adequately support its JAG
      progress reports.

      This recommendation is closed based on the documentation Hartford
      provided.




                                    - 33 -
